September 2006
Report No. 06-026


FDIC’s Contract Administration




           eral
        EVALUATION REPORT
                                                                                                          Report No. 06-026
                                                                                                            September 2006

                                    FDIC’s Contract Administration

                                    Results of Evaluation

                                    During our evaluation, the Acquisition Services Branch (ASB) had a number of
                                    initiatives in progress. Specifically, ASB had streamlined contract administration by
                                    (1) moving toward larger consolidated contracts, including participation in interagency
Background and Purpose of           contracting efforts; (2) centralizing contracting efforts that were formerly administered
Evaluation                          in FDIC regional offices; and (3) increasing procurement card purchasing limits to
                                    include smaller recurring contracts. ASB also defined new competency and skill
Heightened corporate-wide           requirements, pursued targeted recruitments to address skills gaps, and reduced overall
attention to contract               staff by approximately 50 percent since the beginning of 2005.
administration is critical to
ensuring the Corporation            As ASB continues to transform its acquisition function, we concluded that ASB and
receives cost-effective, quality    senior FDIC management needs to devote additional attention to the following areas:
performance from contractors
because the FDIC is increasingly    •   Acquisition Workforce Planning—The FDIC could improve its administration of
relying on contractors to               large and complex contracts by implementing human capital strategies to develop
accomplish its mission.                 and manage the Corporation’s acquisition workforce, which includes Contract
                                        Specialists, Oversight Managers, and Technical Monitors. The FDIC has
Contract administration begins          implemented certain strategies for ASB contracting staff, but additional work is
after contract award and ends           required for Oversight Manager staff.
when goods or services have
been accepted and the contractor    •   Acquisition Procedures—ASB needs to complete revision of its Acquisition
has received final payment. The         Policy Manual to reflect organizational changes, new acquisition approaches,
contractor’s progress must be           process changes, and system changes.
closely monitored to identify
potential problems that could       •   Administration of Contracts—ASB’s electronic system of record for contract file
impact contractor performance.          documentation did not contain important documents for a sample of contracts that
                                        we reviewed. In addition, Contract Specialists and Oversight Managers are not
Contract administration includes        preparing contract administration and monitoring plans, which could assist in
the efforts of both the                 managing contracts. Also, ASB and the FDIC’s Project Management Office need
contracting and program offices.        to do more to establish earned value management as a tool for managing large or
Effective contract administration       complex contracts, such as system development efforts.
(1) helps to ensure that the
contractor delivers the required    •   Contract Management System—ASB currently does not have an effective
goods or services according to          information system for managing contracts. Although the FDIC’s New Financial
the contract delivery schedule          Environment (NFE) integrates financial and procurement information to some
and (2) includes monitoring cost,       extent, ASB has identified a number of gaps between current procurement business
schedule, and technical                 processes and NFE system capabilities.
performance and ensuring that
payments are authorized and
                                    •   Contract Close Out—ASB has a large backlog of completed contracts that needs
supported.
                                        to be formally closed out. A number of these contracts were transferred to off-site
                                        storage and purged from the FDIC’s contract listing. Thus, ASB does not have a
Our evaluation objective was to
                                        definitive listing of all contracts that need to be closed.
assess the strengths and
weaknesses of the FDIC’s
contract administration policies,
                                    Recommendations and Management Response
procedures, and practices for
ensuring that contract cost,        We made 13 recommendations for improvement. Addressing these issues should help
schedule, and performance           to ensure an efficient, effective, and accountable contract administration process and
requirements are met.               better position the FDIC to control costs, meet scheduled timeframes, and ensure
                                    contractor performance. DOA concurred with all recommendations and has planned or
                                    initiated actions that are responsive to each recommendation.
To view the full report, go to
www.fdicig.gov/2006reports.asp
                               TABLE OF CONTENTS


BACKGROUND                                                        1
RESULTS OF EVALUATION                                             3
ACQUISITION WORKFORCE PLANNING                                    4
    ASB Reorganization and Downsizing                             4
    Strategic Management of Oversight Managers                    6
    Recommendations                                               9
ACQUISITION POLICIES AND PROCEDURES                              9
    Recommendation                                               11
ADMINISTRATION OF CONTRACTS                                      11
    Contract File Documentation                                  11
    Contract Administration Plan/Oversight Management
      Monitoring Plan                                            13
    Earned Value Management                                      14
    Contract Closeout                                            15
    Recommendations                                              17
CONTRACT MANAGEMENT SYSTEM                                       18
    Need for Comprehensive Procurement and Financial Data to     18
      Support Management Decisions
    FDIC Contract Information Systems                            19
    Effectiveness of the Current Contract Information System     20
    ASB Effort to Identify Technical Solutions to Maximize the
      Use of NFE                                                 21
    System Requirements                                          22
    Recommendations                                              23
CORPORATION COMMENTS AND OIG EVALUATION                          23
APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                    24
APPENDIX II: GAO FRAMEWORK FOR ASSESSING THE
              ACQUISITION FUNCTION                               25
APPENDIX III: CORPORATION COMMENTS                               26
APPENDIX IV: MANAGEMENT RESPONSES TO RECOMMENDATIONS             33

TABLES
Table 1: Summary of Evaluation Results                           3
Table 2: ASB Staffing Changes                                    5
Table 3: Training Requirements                                    7
Table 4: ASB Plan for Training                                    7
Table 5: ASB Plan for Revision of Policies and Procedures        10
Table 6: APM Requirements and Risk of Non-Performance            16
Table 7: Tasks to be Performed by a Consultant for Maximizing    22
         ASB’s Use of NFE

FIGURE
Value of Active Contracts by Division – March 2006               2
ACRONYMS

APM        Acquisition Policy Manual
ASB        Acquisition Services Branch
APS        Automated Procurement System
BOA        Basic Ordering Agreement
CAP        Contract Administration Plan
CCR        Central Contractor Registration
CEFile     Contract Electronic File
CMIA       Contract Monitoring Information Application
CO         Contracting Officer
COR        Contracting Officer’s Representative
COTR       Contracting Officer’s Technical Representative
CU         Corporate University
DIR        Division of Insurance and Research
DIT        Division of Information Technology
DOA        Division of Administration
DOF        Division of Finance
DRR        Division of Resolutions and Receiverships
EPRIS      Electronic Procurement Routing Invoice Solution
EVM        Earned Value Management
EVMS       Earned Value Management System
FAI        Federal Acquisition Institute
FDL        FDIC Digital Library
FIMS       Financial Information Management System
GAO        Government Accountability Office
HRB        Human Resources Branch
IT         Information Technology
MSPB       Merit Systems Protection Board
MSS        Management Support Section
NFE        New Financial Environment
OM         Oversight Manager
OMB        Office of Management and Budget
OMMP       Oversight Management Monitoring Plan
PAB        Procurement Administrative Bulletin
PMO        Project Management Office
PMP        Performance Management Program
PO         Purchase Order
RUP        Rational Unified Process
TM         Technical Monitor
UAT        User Acceptance Testing
Federal Deposit Insurance Corporation                                                                      Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                       Office of Inspector General



DATE:                                     September 29, 2006

MEMORANDUM TO:                            Arleas Upton Kea, Director
                                          Division of Administration



FROM:                                     Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                          Assistant Inspector General for Audits


SUBJECT:                                  FDIC’s Contract Administration
                                          (Report No. 06-026)

This report presents the results of our evaluation of the FDIC’s administration of contracts.
Specifically, the objective of this evaluation was to assess the strengths and weaknesses of the
FDIC’s contract administration policies, procedures, and practices for ensuring that contract cost,
schedule, and performance requirements are met. Appendix I provides details on our objective,
scope, and methodology.

BACKGROUND

Under the Federal Deposit Insurance Act1 the FDIC can enter into contracts using private-sector
firms to provide goods or services and establish policies and procedures to administer the
contracts. The authority to establish policies and procedures for the Corporation’s contracting
program has been re-delegated by the Board of Directors to the Director, Division of
Administration (DOA). DOA’s Acquisition Services Branch (ASB) issues contracting guidance
for the Corporation through the Acquisition Policy Manual (APM).

The Contracting Officer (CO) is responsible for contract administration. Only a CO may enter
into a contract, make a contract modification, or change a contractual commitment. The CO is
responsible for ensuring compliance with the contract and may delegate certain authorities to other
personnel such as the Oversight Manager (OM) and Technical Monitors (TM). Effective contract
administration (1) ensures that the contractor delivers the required goods or performs the work
according to the statement of work or delivery schedule in the contract and (2) includes
monitoring cost, schedule, and technical performance and ensuring that payments are properly
authorized and supported.

Oversight management involves overseeing the technical performance requirements of the
contract and is primarily the responsibility of the OM and TM. These personnel work in the
program office that is the recipient of the services being provided. The program office for which
the work is being performed is responsible for ensuring that adequate resources are available for
monitoring contractor performance. The Corporation's exposure to risk is greater with increased

1
    12 United States Code § 1819.
reliance on outsourcing if contracts are not properly managed. Maintaining strong internal
controls and effective oversight of contracting activities is critical to the success of contract
administration.

During our review, we used the Government Accountability Office (GAO) report entitled,
Framework for Assessing the Acquisition Function at Federal Agencies (GAO Framework),2 as a
guide to assess the FDIC’s contract administration efforts. GAO developed this framework to
enable high-level, qualitative assessments of the strengths and weaknesses of the acquisition
function at federal agencies. The framework is built on a foundation of strong internal control.
Agency management is responsible for establishing and maintaining effective internal control,
which includes the plans, methods, and procedures used to meet missions, goals, and objectives.
Appendix II provides additional details on the GAO Framework that we used in planning and
conducting our evaluation.

Over the past few years, the FDIC has increased its reliance on outsourcing for areas such as
information technology (IT) infrastructure services support, IT application system development,
and facilities maintenance. At the same time, the FDIC has reduced its corporate staff, including
ASB contracting staff. Accordingly, it is important that the FDIC have an acquisition workforce
with the right skills, current acquisition procedures, tools, and strategies to manage contracts and
information systems that can readily provide information needed to manage contracts and
monitor contractor performance. The following figure presents a breakout of FDIC contract
dollars, by division, as of March 2006.

          Value of Active Contracts by Division—March 2006

                                        DOF                               DIR
              DRR                    1% - $10 mill                    3% - $39 mill
           4% - $57 mill                                                              DOA
                                                                                  19% - $284 mill




                  DIT
                73% -
              $1,130 mill


          Source: Quarterly Contracting Report to the FDIC Board of Directors.




2
    GAO-05-218G, dated September 2005.




                                                        2
RESULTS OF EVALUATION

During our evaluation, ASB had a number of initiatives in progress to improve the efficiency and
effectiveness of contract administration at the FDIC. ASB had enhanced the proficiency of
acquisition staff, streamlined acquisition operations, and reduced the number of contracts by:

•   recruiting Contract Specialists possessing specific skills and competencies and developing a
    training program and required curriculum for Contract Specialists;
•   reducing contracting personnel by approximately 50 percent and centralizing at FDIC
    headquarters those contracting efforts formerly administered in regional offices; and
•   moving toward larger consolidated contracts, including through participation in interagency
    contracting efforts; and
•   increasing procurement card purchasing limits to include smaller recurring contracts.

Nevertheless, effective contract administration at the FDIC is being hampered by weaknesses in
acquisition workforce planning, acquisition procedures, administration of contracts, and contract
management systems. Table 1 presents a summary of the results of our review.

Table 1: Summary of Evaluation Results
                       Evaluation Observations
 ACQUISITION                ASB Reorganization and Downsizing: ASB’s efforts to restructure its
 WORKFORCE                  workforce were protracted by a lengthy separation process for surplus staff and
 PLANNING                   delays in the recruitment of new staff with required skills and competencies.
                            This situation was largely outside of ASB’s control but impacted ASB’s ability
                            to effectively administer FDIC contracts.

                            Strategic Management of Oversight Managers: The FDIC needs to define
                            the skills and competencies that OMs should possess and establish a training
                            program for developing OMs. Further, the FDIC currently does not consider
                            contract oversight when evaluating OMs’ performance.

 ACQUISITION POLICIES       ASB needs to revise its APM to reflect ASB’s current acquisition approach,
 AND PROCEDURES             process changes, and financial system changes.

 ADMINISTRATION OF          Contract File Documentation: Contract Electronic File (CEFile), ASB’s
 CONTRACTS                  electronic system of record for contract documentation, did not contain
                            important procurement-related documents for a sample of contracts that we
                            reviewed. This is a recurring condition that we have noted in prior audits and
                            that DOA internal review staff has previously reported.

                            Contract Administration Plan (CAP)/Oversight Management Monitoring
                            Plan (OMMP): None of the contracts in our sample included contract
                            administration or oversight management monitoring plans.

                            Earned Value Management (EVM): The FDIC needs to do more to establish
                            policy and dedicate trained program resources for applying EVM techniques to
                            large, complex contracts.

                            Contract Closeout: ASB has a backlog of approximately 3,000 completed
                            contracts that need to be formally closed out.




                                                   3
                                 Evaluation Observations
    CONTRACT                     The FDIC currently does not have an effective information system for
    MANAGEMENT SYSTEM            managing contracts. Although the New Financial Environment (NFE)
                                 integrates financial and procurement information to some extent, ASB has
                                 identified a number of gaps between current procurement business processes
                                 and NFE system capabilities. ASB has plans to implement a new automated
                                 procurement system, which is urgently needed to help ensure that well-informed
                                 business decisions are made.
Source: OIG Analysis.


Some of these areas are within ASB’s ability to address. However, several areas will require
cooperation with other divisions. Contract administration has corporate-wide implications and
thus requires a corporate focus and senior-level management attention. Considering the FDIC’s
reliance on outsourcing and the risk associated with our findings taken collectively, we are
recommending that the FDIC consider including contract administration as a high-vulnerability
area3 in the FDIC’s Annual Report and devote sustained management attention to the contract
administration function. Addressing the issues discussed in this report should help to ensure an
efficient, effective, and accountable contract administration process that helps to control costs,
meet scheduled timeframes, and ensure contractor performance.


ACQUISITION WORKFORCE PLANNING

ASB has taken efforts to complete its reorganization and associated downsizing; however, the
FDIC could improve its administration of contracts by implementing human capital strategies to
develop and manage the Corporation’s acquisition workforce. ASB has implemented certain
strategies for managing contracting staff such as identifying skills needs and gaps, pursuing
targeted recruitments to address skill gaps, and establishing a training curriculum to develop
staff. However, the FDIC could do more to manage, develop, and hold accountable OMs
responsible for overseeing contracts.

ASB Reorganization and Downsizing

ASB’s efforts to restructure its workforce were protracted by a lengthy separation process for
surplus staff and delays in the recruitment of new staff with required skills and competencies.
These personnel issues impacted ASB’s ability to effectively administer FDIC contracts.

During 2004, DOA branches and regional offices conducted organizational self-assessments to
find opportunities for streamlining organizational structures, business processes, and staffing
composition to better meet the needs of the Corporation. Each DOA component, including ASB,
developed a proposal for making adjustments in their respective organizations. ASB proposed a
strategy for consolidating contracting operations in Washington, continuing to gain efficiencies
through contract consolidation, expanding the procurement credit card program, and leveraging
corporate buying power. ASB predicted that these and other measures would lead to the
elimination of up to 40 positions nationally.

3
 As defined by FDIC’s internal management control program, high-vulnerability areas should be disclosed in the
FDIC’s annual statement of assurance on internal accounting and administrative control as required by the Federal
Managers Financial Integrity Act.




                                                        4
We saw evidence that ASB pursued these strategies, made organizational changes, and reduced
corporate staff by:

•      Consolidating regional contracting operations in ASB headquarters and eliminating 18 staff
       positions in the regional offices.

•      Consolidating or otherwise greatly reducing the number of contracts at the FDIC. In 2004,
       the FDIC issued about 1,000 new purchase orders and contracts. During 2006, ASB expects
       to issue fewer than 200 purchase orders and contracts—an 80-percent reduction.
       Consolidation of individual IT contracts into the Infrastructure Services Contract and IT
       Application Services contract are examples of new FDIC approaches for contract services.
       ASB representatives noted that contract consolidation simplifies the administration of
       contracts and strengthens the FDIC’s ability to hold the contractor accountable for
       performance.

•      Working closely with clients to encourage the appropriate use of procurement cards and
       convenience checks. Instead of writing individual formal contracts for low-cost, recurring
       actions, such as for a residential appraisal, ASB transitioned many of these actions to the
       procurement card.

Consistent with its plans to transition to larger, more complex procurements, ASB re-evaluated
its existing staffing mix, identified competencies and skills gaps, and pursued targeted
recruitments for positions such as business advisors and procurement analysts. Table 2 presents
ASB headquarters and regional staffing levels before and after ASB downsizing and targeted
recruitment efforts.

Table 2: ASB Staffing Changes
                                 Pre-
                           Reorganization                           Buyouts,                             Post-
                           Staffing Levels       ASB Surplus      Resignations,                     Reorganization
     Location                  (2005)               Staff          and Other       New Hires        Staffing Levels
 Headquarters                     51                (27)              (10)            10                   24
 Regional                         20                (18)                0             0                    2
 Total                            71                (45)              (10)            10                   26
Source: ASB.

ASB’s efforts to restructure its workforce were protracted by a lengthy separation process for
surplus staff and delays in recruiting new staff. First, the FDIC’s Chief Operating Officer
announced the FDIC’s corporate-wide downsizing initiative in October 2004; however, the FDIC
elected to retain DOA surplus staff until September 2006 and has pursued placement of surplus
staff in other vacant positions within the Corporation. Second, ASB’s proposed business
strategy was based on the timely recruitment of new staff with needed skills and competencies.
However, the recruitment process took about 20 months. ASB hired its final four staff in July
and August 2006.4 As a result, ASB operated for almost 2 years with a number of critical
vacancies and staff that were targeted for surplus and generally had little stake in the office’s
success. This situation had a negative impact on ASB’s ability to effectively manage ongoing
procurements.

4
    Two additional non-surplus ASB staff have also left the FDIC, resulting in two additional vacancies.




                                                           5
Strategic Management of Oversight Managers

In April 2005, the Office of Management and Budget (OMB) issued policy letter 05-01,
Developing and Managing the Acquisition Workforce, to establish a government-wide
framework for creating a federal acquisition workforce with the skills necessary to deliver best
value supplies and services, find the best business solutions, and provide strategic business
advice to accomplish agency missions. The policy letter defines the acquisition workforce to
include Contracting Officer’s Representatives (COR), Contracting Officer’s Technical
Representatives (COTR), and program and project managers.5 The policy letter requires agency
Chief Acquisition Officers to develop and maintain an acquisition career management program
to ensure the development of a competent professional workforce to support the accomplishment
of an agency’s mission. The policy letter also requires Chief Acquisition Officers to develop
basic and refresher training requirements to ensure CORs and COTRs are adequately trained for
the functions they perform and to establish agency requirements for their continuous learning.

The Corporation is not required to follow the OMB policy letter; however, the policy presents
sound workforce planning guidance that most of the federal government is required to follow and
could serve as best practices for the FDIC.

Moreover, a December 2005 Merit Systems Protection Board (MSPB) report, Contracting
Officer Representatives: Managing the Government’s Technical Experts to Achieve Positive
Contract Outcomes (MSPB Report), notes that COR human capital plans should:

•     address the number of CORs that the agency will need now and in the future, and the
      competencies CORs should have,
•     identify current CORs and the competencies that they possess, and
•     include strategies for addressing any skills and succession planning gaps.

Further, a December 2003 Federal Acquisition Institute (FAI), Report on Competencies for the
Contracting Officer’s Technical Representative (COTR) Job Function (FAI Report), identified
critical competencies, such as problem solving, writing, and project management, that underlie
effective COTR performance for use in guiding training and development efforts. The report
also identified the following three reform challenges facing the federal acquisition community:

•     first, the narrow view of the COTR as administrator constrains these individuals’ ability to
      influence and build partnerships across program and contracting offices;
•     second, COTR-related responsibilities are viewed as an afterthought and are not taken
      seriously, providing little encouragement or motivation from stakeholders; and
•     third, the increase in the use of service-based contracts presents an ability gap for
      technically-oriented COTRs who are accustomed to managing technically-based contracts.

The FDIC faces similar challenges with its OMs. During our review, we noted that the FDIC
does not maintain a skills repository of FDIC OMs on their historical contract experience,
competencies, or training courses attended. Further, the FDIC has not identified the
competencies its OMs should possess. Additionally, the FDIC has not developed a formal

5
    COR and COTR responsibilities and duties are similar in nature to the FDIC’s OM responsibilities.




                                                          6
selection process—with selection criteria and input from ASB and program office
management—for nominating OMs to complex or large contracts. Finally, the FDIC generally
treats oversight management as a collateral duty assignment, even for large and complex
procurement efforts. As a result, the FDIC may not have a strategic understanding of the skills
that the Corporation’s OMs require, a practical knowledge of the number and skills that existing
OMs possess, or empirical information identifying skills gaps for use in determining human
capital solutions.

Training and Development: The GAO Framework notes that “creating an acquisition
workforce with the right skills and capabilities can be a challenge, given changes to acquisition
processes, the introduction or expansion of alternative contracting approaches, and increased
reliance on services provided by the private sector.” The Framework also states that “investing
in training for the acquisition workforce is critical to ensuring adequate oversight of the quality,
cost, and timeliness of goods and services delivered by third parties.”

Under its reorganization, ASB identified a need for more
                                                                           Table 3: Training
experienced, proficient Contract Specialists. ASB established
                                                                           Requirements
training requirements for Contract Specialists in order to                  Mandatory Contract Specialist
develop staff with the right skills and knowledge. ASB is                   Training Curriculum
requiring that all Contract Specialists complete the five courses           Acquisition Procurement Planning II
presented in Table 3 by December 2007. A mandatory training                 Advanced Pricing Analysis
program will help to ensure that Contract Specialists develop               Negotiation Strategies and
consistent skills to better manage current and future contracts.            Techniques
                                                                            Advanced Course in Contract
Additionally, ASB has partnered with the FDIC’s Corporate                   Administration
University (CU) and coordinated with FAI to include                         Advanced Course in Contract Law
self-paced, computer-based training courses on the CU Web                   Source: ASB.
site.

Further, ASB’s 2006 Policy and Operations Section Priorities Plan (ASB Plan) identifies
training as a high-level goal and includes five related tasks (presented in Table 4) that ASB plans
to accomplish.

Table 4: ASB Plan for Training
 Description                                                                        Status
 (1) Revise on-line training: procurement card, OM.
 (2) Develop topic-specific training as new policies are issued and major changes
 are made.
 (3) Hold regular workshop training sessions (45 minutes) based on real examples.   First session scheduled for
                                                                                    September 2006
 (4) Get ideas from ASB COs (pool the floor to find out what areas COs would like   Interviews were completed
     training in or clarification on existing policy).                              in August 2006
 (5) CO Warrant Program: Review/update Warrant Program policy/procedures as
 necessary.
Source: ASB Policy & Operations Section Priorities Plan.


A training curriculum for Contract Specialists is a positive step; however, the FDIC also needs to
establish a more intensive curriculum for FDIC’s OMs. Currently, the APM requires that OMs
successfully complete the instructor-led Oversight Management Training or the Web-based




                                                           7
Oversight Management Instruction. This is a one-time requirement that must be met before an
OM is assigned oversight responsibility for a specific contract.

We determined that 27 percent of current OMs completed the required OM training course
within the past 5 years.6 In addition, for the five contracts we selected for detailed review, we
determined that four of the five OMs took the required oversight management class within the
past 2 years. The remaining OM took the class 9 years ago. In May 2006, ASB issued
Procurement Administrative Bulletin (PAB) No. 2006-05, General Reminders of Contracting
Officer’s Role in Appointing Oversight Managers, which reminded COs to ensure that OMs have
successfully completed the FDIC Oversight Manager on-line training course before issuing the
Letter of OM Confirmation.

We completed ASB’s on-line training for OMs to understand the content and presentation of the
course. The OM training addressed OM responsibilities and duties required for contract
administration. However, the FDIC needs to expand its curriculum for OMs to ensure that they
develop the skills and abilities to effectively manage FDIC contracts. We obtained information
from the FAI/Defense Acquisition University Web site, which included suggested COR training
in topics such as: Market Research, Scheduling, Performance-Based Services, Work Breakdown
Structure, and Contractual Incentives. Many of these course subjects are relevant to the FDIC’s
contracting environment.

The lack of adequately trained OMs puts the Corporation at risk of not having personnel with
adequate skill sets to effectively manage contracts and may limit opportunities for cost savings in
the acquisition of goods and services for the FDIC.

Holding OMs Accountable and Rewarding Them for Good Performance: The MSPB
Report notes that to hold CORs accountable for their contracting work, agencies must first
ensure that CORs are clearly informed about their responsibility and authority and then assess
their performance in completing these duties. The report concluded that CORs who are rated on
the performance of their contracting work also reported more positive contract outcomes,
especially in terms of timeliness, quality, and cost, than did CORs who were not rated on their
contracting work.

Additionally, the FAI Report found that study participants viewed that COTR responsibilities
were not taken seriously due to the lack of a clear relationship between performing those
responsibilities and an individual’s performance appraisal. Participants stated that no mechanism
currently exists to incorporate COTR responsibilities into formal performance appraisal forms.
Additionally, the report noted that COTR responsibilities are not rewarded on an informal basis,
further contributing to the view of the COTR role as a secondary responsibility.

An FAI representative that we contacted indicated that the Department of Commerce rated
CORs’ contract oversight performance. We reviewed the Department of Commerce’s
Commerce Acquisition Manual, which included a section entitled, Contracting Officer
Representative Certification Program. The manual included sample Performance Management

6
 To determine the 27 percent, we compared a CU listing of OM class attendees for the past 5 years against a list of
OMs from the NFE Purchase Order Summary Report.




                                                         8
Program (PMP) language for CORs regarding contract management in a “meets/does not meet”
format with the following measures:

     •       regularly communicates with the CO,
     •       resolves technical issues in a timely manner,
     •       submits contract deliverables on time, and
     •       provides accurate and complete submissions to the CO.

Further, both the COR’s supervisor and the CO have input into this rating.

The FDIC does not have a specific job classification for OMs. Instead, OM responsibilities are
addressed in various job classifications throughout the FDIC. Specifically, the position
description for an IT Specialist7 working for the Division of Information Technology (DIT),
states as one duty “monitoring contractor performance, reviewing and evaluating contractor
deliverables, and reviewing contractor invoices.” The PMP for IT Specialists has four
performance criteria: Technical/Analytical Skills, Organizational Skills, Oral Communication
and Interpersonal Skills, and Written Communication Skills. Each employee is rated as meets or
does not meet for the performance criteria listed. However, contract oversight management is
not currently a separate PMP component or specifically discussed in the existing PMP criteria.

Recommendations:

We recommend that the Director, DOA:

1.       Establish a program for strategically managing the Corporation’s OMs. This program
         should include a:

         •    listing of desired competencies and skills for OMs;
         •    skills repository for OMs that identifies their contract oversight experience,
              competencies, and skills and training courses attended;
         •    training curriculum for OMs; and
         •    documented process for nominating OMs to large or complex contracts that includes
              ASB input or concurrence with the individual nominated to serve as OM.

2.       Coordinate with the FDIC’s Human Resources Branch and Legal Division to determine the
         feasibility of including, in OM’s performance ratings, performance criteria related to
         overseeing and administering contracts.


ACQUISITION POLICIES AND PROCEDURES

ASB needs to place a higher priority on completing revisions to the APM to reflect organization
changes, new acquisition approaches, process changes, and system changes. The need for
revised procedures becomes increasingly important as ASB hires staff who may not be familiar

7
  We selected the DIT position because as of March 2006, DIT accounted for approximately 73 percent of the dollar
value of active contracts by client divisions within FDIC.




                                                       9
with ASB processes. Clear and current procedures help to ensure that management’s directives
and intentions are carried out. ASB acknowledged that the APM needs to be revised and is
currently in the process of updating individual sections of the manual.

In this regard, the GAO Framework states:

        Policies and processes embody the basic principles that govern the way an agency
        performs the acquisition function. Ideally, policies and processes clearly define the roles
        and responsibilities of agency staff, empower people across the agency to work together
        effectively to procure desired goods and services and establish expectations for
        stakeholders to strategically plan acquisitions and proactively manage the acquisition
        process. To be effective, policies and processes must be accompanied by controls and
        incentives to ensure they are translated into practice. Policies and processes that fail to
        address these objectives contribute to missed opportunities to achieve savings, reduce
        administration burdens, and improve acquisition outcomes.

ASB last updated the APM in May 2004 to: (1) establish a revised set of policies and procedures
for procuring goods and services on behalf of the Corporation in its corporate, receivership, and
conservatorship capacities; and (2) identify roles and responsibilities for all FDIC employees
involved in the pre-solicitation, solicitation, proposal evaluation, award, and contract
administration phases of the procurement process. ASB also issued various interim policies in
2004 and 2005 to communicate changes in the FDIC’s acquisition process and five PABs in
2006 covering various contracting issues.

Based on our interviews with ASB officials and our review of the APM, we concluded that the
APM does not currently reflect (1) processes and procedures for consolidated and bundled
contracts; (2) new systems such as the FDIC’s NFE; (3) elimination of systems such as the
Electronic Procurement Routing Invoice Solution (EPRIS) and the Contract Monitoring
Information Application (CMIA), which were replaced by NFE; (4) changes in the procurement
card program and expanded use of the procurement card for recurring and low-cost actions; and
(5) ASB’s new organization structure and business advisor approach to contract management.
Without current policies and procedures, ASB lacks assurance that management’s directives and
intentions will be consistently carried out.

During our evaluation, ASB prepared a 2006 ASB Policy and Operations Section Priorities Plan,
which included initiatives and timeframes for completing necessary actions to implement ASB’s
reorganization. Specifically, ASB identified, as high-level plan tasks, the restructuring of the
APM, adding levels of guidance and incorporating revised contracting general provisions. Under
this section, ASB identified seven specific tasks that need to be accomplished to complete the
revisions to ASB policies, as shown in Table 5. ASB provided completion dates for most tasks
that it identified.

Table 5: ASB Plan for Revision of Policies and Procedures
                          Task Description                                  Status/Estimated Completion
 Conduct benchmarking against other agencies’ acquisition policies       Completed in August 2006.
 and procedures.
 Develop the infrastructure and convention for all guidance, including   Task is in progress.
 ASB Web site.




                                                        10
                           Task Description                             Status/Estimated Completion
 APM: Restructure to include high-level guiding principles,         No target date for completion.
 including all general provisions, regulatory, and statutory and
 corporate requirements.
 Acquisition Procedures: Develop more specific procedure guidance   No target date.
 for ASB personnel specifically.
 PABs: The purpose of PABs is to send general
 information/instruction/reminders to contracting personnel.        As required.
 Acquisition Letters to broader population.                         As required.
 Standard Operation Procedures: Internal Controls                   Development of user manuals is in
 Specific User Manuals (Quick-Reference Guides):                    progress. OM reference manual is
 -OM User Reference Manual                                          nearing completion. Procurement Card
 -Procurement Card User Manual                                      Brochure is being printed.
Source: ASB Policy & Operations Section Priorities Plan.


ASB indicated that their efforts to revise the APM, including the tasks above, have been delayed
due to a lack of staff resources to work on the APM revisions and because of higher priorities
within ASB. In August 2006, we confirmed that the FDIC was still in the process of revising the
APM. ASB did not provide our office estimated milestone dates for completing the APM update
but noted that ASB had contracted with Acquisition Solutions, Inc., to review the FDIC’s
standard contract document, existing contract clauses, and general provisions to eliminate
redundant or duplicative clauses. ASB also noted that it could use Acquisition Solutions in the
future, if needed, to draft revised APM procedures.

Recommendation

We recommend that the Director, DOA:

3.     Establish firm target dates and devote dedicated resources for completing the APM and
       related contracting documents, contract clauses, and provisions.


ADMINISTRATION OF CONTRACTS

ASB and program offices could improve the ongoing management of contracts following
contract award. We found that the CEFile, ASB’s official system of record for contract
documentation, was incomplete. Moreover, Contract Specialists and OMs did not routinely
prepare CAPs or OMMPs for a sample of contracts that we reviewed. We also concluded that
the FDIC needs to do more to establish a policy and dedicate program resources for applying
EVM techniques to large or complex contracts. Finally, ASB needs to devote resources and
establish milestones to resolve a large backlog of expired contracts that have not been formally
closed out. These efforts should help to ensure that the Corporation adequately documents
contract events and has more effective tools and techniques in place for monitoring cost,
schedule, and contractor performance.

Contract File Documentation

GAO’s Standards for Internal Control in the Federal Government states that “… all transactions
and other significant events need to be clearly documented, and the documentation should be



                                                           11
readily available for examination. The documentation should appear in management directives,
administrative policies or operating manuals and may be in paper or electronic form.”
CEFile became the official contract file of record for ASB headquarters on August 1, 2003. ASB
issued Interim Acquisition Policy Number 2004-5 entitled, CEFile, which states:

        CEFile is the FDIC’s official contract file of record and applies to all acquisition
        personnel in the Headquarters and Regional Contracting Offices. For the purposes of this
        memorandum, this policy shall be applied to all procurements at all dollar thresholds in
        order to ensure proper contract file management. Using CEFile is an essential
        responsibility of all personnel required to maintain official contract files.

        Maintaining the official contract file in CEFile is an ongoing and continuous process. It
        is the responsibility of both the Contract Specialist and the Oversight Manager to ensure
        that their CEFile is current, accurate, and complete. An official electronic contract file
        should document the basis for the acquisition and the award, the assignment of contract
        administration, and any subsequent actions taken by the contracting office. The
        documentation in the files shall be sufficient to constitute a complete history of the
        transaction for the purpose of (a) providing a complete background as a basis for
        informed decisions at each step in the acquisition process; (b) supporting actions taken;
        (c) providing information for reviews and investigations; and (d) furnishing essential
        facts in the event of litigation or congressional inquiries.

The interim policy noted that in addition to maintaining ASB records related to the contract, the
OM should maintain contract-related records in CEFile.

DOA developed a Contract Electronic File Desk Companion (Desk Companion), which provides
a basic overview of CEFile and serves as a reference for users. The Desk Companion notes that
CEFile is part of FDIC’s Digital Library (FDL), which is a corporate electronic repository used
to store and manage electronic documents as well as electronic images of paper documents. The
purpose of the FDL is to improve information management and enhance corporate data sharing
of corporate documents by maintaining them in a single repository that provides various access
levels, as appropriate, to FDIC staff.

The Desk Companion also includes a section entitled, Acceptable Name Identifiers for
Documents in the FDL, which lists document names for a number of specific contracting-related
documents. However, it is unclear whether this section is intended to provide a definitive listing
of the required contract documents that should be included in a particular contract file.

Inadequate contract file documentation has been a recurring issue for ASB. Several audit and
evaluation reports have identified contract file documentation findings.8 Further, DOA’s
8
 These OIG reports include: (1) Contract Solicitation and Evaluation, Report No. 05-029, dated August 2005,
which referenced a separate memorandum that was issued to management regarding contract file documentation.
The memorandum, dated July 11, 2005, identified missing documentation in the solicitation phase and justification
for the noncompetitive procurement phase of the contracts reviewed; (2) FDIC’s Use of Consultants, Report No.
05-003, dated January 18, 2005, which reported that official contract files did not always contain evidence that
contracts had been properly justified, planned, or managed; and (3) XBAT Contracting and Project Management,
Report No. 04-014, dated March 26, 2004, which identified problems with retaining an original contract in the
official contract file and retaining copies of the Contract Administration Plan.




                                                       12
Management Support Section (MSS) issued several internal review reports that included file
documentation findings, including a post-award review report dated, September 24, 2004, and an
internal review report dated, June 10, 2005. The latter report included repeat findings related to
contract file documentation such as incomplete and poorly organized contract documentation
within CEFile, inconsistent application of CEFile guidance among ASB users, and a lack of
contract documentation to support procurement actions.

The June 2005 MSS report also included observations related to OMs. Specifically, of
24 contracts reviewed, MSS found no evidence that OMs had uploaded OM files into CEFile,
making it difficult to ascertain whether contractors had delivered goods or met the service
deliverables as required under the contract. MSS also found the general correspondence between
OMs and Contract Specialists documented in CEFile to be limited.

We reviewed contract file documentation within CEFile for a judgmental sample of five
contracts, each over $100,000 in value, and found that CEFile did not include all required
documentation to provide the FDIC with a complete history of contract actions. For example,
we did not see evidence of:

•   a CAP or an OMMP in CEFile for any of the five contracts reviewed,
•   the Central Contractor Registration (CCR)9 for three of the five contracts reviewed, and
•   acceptable contractor background investigation results for three of the five contract files
    reviewed.

Moreover, we saw no evidence that OM files were included in CEFile for any of the five contract
files that we reviewed.

We could not determine with certainty why Contract Specialists and OMs were not consistently
recording key contracting documents and events in CEFile. An MSS internal review report
concluded that OMs might not have been aware that they were required to include their OM files
in CEFile. In this regard, several of the OMs for the five contracts in our sample that we
reviewed were unaware of CEFile. Further, we noted that neither the CEFile interim policy nor
the Desk Companion included a definitive listing of the contract documents or contract events
that should be included in CEFile. Additionally, other than the MSS internal review efforts,
ASB does not have an oversight or monitoring program in place to periodically verify that
CEFile contains accurate and complete information. Finally, we saw no evidence that adequacy
of contract file documentation was factored into the performance appraisal process for OMs.

Contract Administration Plan/Oversight Management Monitoring Plan

COs and OMs did not prepare CAPs or OMMPs for the five contracts we reviewed. The APM
requires that the CO, with the assistance of the OM, prepare a CAP immediately following
contract award. In addition, the APM states that the OM should complete and use the OMMP to
assist in performing oversight activities for complex contracts. Both plans assist the CO, OM,


9
 A CCR ensures that an awardee is properly registered with the FDIC. The CO is required to review the CCR
before contract award.




                                                      13
and TM in administering contracts to ensure that contract requirements are being met by the
contractor.

The FDIC’s APM states that a CAP is required for all contracts and task order services having a
total estimated value of $100,000 and greater. The objective of the CAP is to ensure that the OM
and CO have a common understanding of both the contractor’s and FDIC’s obligations under the
contract. The CO prepares the CAP, with the assistance of the OM, immediately following
contract award and no later than the post-award conference, if one is to be held. A copy of the
CAP is also provided to the OM.

The APM also states that the OM must determine what level of oversight is necessary to ensure
that the contractor makes satisfactory progress toward the successful completion of the contract.
To assist in performing oversight activities for complex contracts for services, the OM should
complete and use the OMMP. A copy of the OMMP should be provided to the CO, and any
other member on the oversight team who might benefit. The OMMP should be updated during
performance to reflect any changes to the contract and be redistributed. OMs may supplement
the elements of the monitoring plan, as needed.

Acquisition best practices guidance that we reviewed also recommended the use of contract
administration plans to assist in managing contracts. For example, the GAO Framework
identifies the use of contract monitoring plans or risk-based strategies for tracking contractor
performance as an indicator that agencies are effectively monitoring and providing oversight to
contractors.

During our review of the five selected contracts, we did not find evidence that the Contract
Specialist had prepared a CAP or that the OM prepared an OMMP for any of the five contracts.
Based on our discussions with ASB officials, we concluded that the CAP, as currently designed,
may not meet ASB’s needs for a plan to effectively monitor contracts. However, Contract
Specialists and OMs should be using some type of tool or mechanism to document an approach
to providing oversight and monitoring for complex or large procurements and to preserve
oversight continuity in the event of changes in Contract Specialist or OM designation. Without
the plans or other mechanisms for facilitating oversight, the FDIC increases the risk that
contractors may not perform all of the required services under the contract.

Earned Value Management

EVM is one method to monitor a project’s progress in terms of cost and schedule, which
provides insights into performance. In consolidating contracts and streamlining the acquisition
process, the FDIC needs to consider using EVM as a tool to administer large, complex
procurement efforts, such as IT system development contracts.

EVM is mandatory for most government agencies. OMB issued Memorandum M-05-23,
Improving Information Technology (IT) Project Planning and Execution, dated August 4, 2005,
which required most federal agencies to use an EVM System (EVMS) for all new major IT
projects, ongoing major IT developmental projects, and high-risk projects to better ensure
improved execution and performance as well as promote more effective oversight. The OMB
memorandum required agencies to develop EVMS policies no later than December 31, 2005.




                                               14
The memorandum also offered information on resources and training to assist in developing and
implementing EVMS policies. We confirmed that the FDIC is not required to follow the OMB
memorandum.
EVM is an effective way to manage and assess project performance. EVM is a principled
approach to establishing and managing acquisition and project performance metrics. It is a
method of determining a project’s status by comparing the time-phased value of work planned to
the value of the work achieved and actual costs expended. The key to an effective EVM system
is the ability to allocate the budgeted cost of work to be performed over the scheduled period of
performance for a cost account that, in turn, is directly related to the contract work breakdown
structure. EVM integrates the evaluation of the project scope of work, schedule, and budget to
optimize project planning and control.

Although EVM is not a requirement at the FDIC, FDIC officials indicated that DIT’s Project
Management Office (PMO) will establish a policy for the use of EVM in large and complex
projects. In this regard, the PMO indicated that the FDIC had taken the following actions.

     •   Established an EVM clause that can be included in the statement of work for contracts
         awarded by the FDIC.
     •   Conducted two sessions on EVM for FDIC employees to provide awareness on the EVM
         program.
     •   Established a Web site that presents an explanation and examples of how EVM works.

While these measures are positive steps, it is important that the FDIC establish a well-defined
EVM program supported by procedures and staff with the skills and abilities to interpret and act
upon EVM results and data. In this regard, DOA expressed concern that the FDIC was rushing
to include EVM in IT system development contracts without fully considering the cost-benefit of
EVM and without ensuring that DIT program managers were sufficiently trained in interpreting
EVM results. In this regard, Primavera Systems, Inc.,10 issued a study in November 2005,
Earned Value Management in the Federal Government, which surveyed federal government IT
decision makers and reported that a significant disconnect exists between the value the federal IT
community places on EVM and the associated action being taken to implement EVM. Survey
respondents reported unfamiliarity with EVM, lack of trained personnel, and lack of senior
management interest as the top challenges surrounding EVM implementation.

Contract Closeout

ASB needs to formally close out a large number of contracts in accordance with the FDIC’s
APM. Although ASB believes there is limited risk associated with not closing out these
contracts, the APM requires formal closeout to verify that all parties to the contract have fulfilled
their contract obligations, and there are no open issues or responsibilities remaining.

The APM states that “a contract is completed when all goods or services have been received and
accepted; all reports have been delivered and accepted; all administrative actions have been
accomplished; all FDIC-furnished equipment and materials have been returned and accounted for

10
  According to its Web site, Primavera Systems, Inc., is a leading independent provider of collaborative resource,
project, and portfolio management solutions.




                                                        15
by the Program Office; and final payment has been made to the contractor. After completion, or
termination, the contract must be closed out.” The APM also states that “the purpose of contract
closeout is to verify that both parties to the contract have fulfilled their contract obligations, and
there are no open issues or responsibilities remaining. It requires close coordination and teamwork
between the Oversight Manager and the Contracting Officer.”

In addition, on June 16, 2004, ASB issued Interim Acquisition Policy 2004-7 entitled, Emphasis
on Contract Closeout Procedures. The purpose of the interim policy was to re-emphasize the
current policy regarding closeout of contracts that reside at ASB headquarters. The interim
policy applied to all contracts issued and maintained by ASB headquarters personnel and states:

        A new emphasis has been placed on the contract closeout process due to an estimated
        inventory of 4,890 contracts requiring closeout. These contracts have expiration dates
        that range from 1998 through 2004. The Operations Unit of the Policy and Operations
        Section has stratified the contracts by dollar value and year, and has presented a
        “closeout” plan for those contracts. It is imperative that all ASB personnel be cognizant
        of this procedure in order to achieve the goal of having a significant reduction in
        completed contracts waiting and requiring closeout by December 31, 2004.

The contract closeout phase provides FDIC assurances that the contractor has fulfilled its
contract obligations. Although ASB recognized that closeout of contracts was an issue in
June 2004, the problem still exists with approximately 3,000 contracts requiring formal closeout.
This situation is exacerbated because ASB does not have a definitive list of many of the older
contracts that the FDIC has sent to offsite long-term storage. The uncertainty about the number
of contracts in storage resulted, in part, because the FDIC’s Financial Information Management
System (FIMS), which preceded NFE, automatically purged contracts from the system after
2 years of inactivity. DOA transferred all hardcopy files for these contracts to offsite long-term
storage.

ASB believes there is limited risk associated with contract closeout; however, we determined
that there are risks that the FDIC could face when a contract is not closed in a timely manner as
shown in Table 6.

Table 6: APM Requirements and Risk of Non-Performance
                                                              Risk to the FDIC Associated with
               APM Requirement                                Non-Performance of Requirement
 Contractor performed all required contractual    The FDIC did not receive all deliverables required by the
 obligations.                                     contract.
                                                  The FDIC hires a poor performing contractor for future work.
 Payments due to the contractor have been made.   The FDIC either overpaid or underpaid the contractor.
 Reconciliation of all advances/FDIC property     Advances were not properly accounted for and returned.
 has been returned.                               FDIC property was not returned from the contractor.
 All funds or fees due from the contractor,       The FDIC is due funds or fees from the contractor.
 including offsets or demands for payments
 initiated by the FDIC have been collected.
Source: OIG Analysis.

ASB has taken efforts to reduce the contract closeout backlog. For example, ASB paid a
contractor $89,753 to perform closeout services during the period October 2005 through




                                                     16
January 2006. The contractor closed approximately 300 contracts during this period. ASB also
indicated that six FDIC employees will be assigned the responsibility of closing out the
remaining 3,000 contracts. ASB indicated that these contracts would be closed out by the end of
2006, but acknowledged that it may be necessary to adjust its timeframes for completion.

It is important that ASB establish a risk-based, cost-effective approach for resolving the closeout
backlog. This approach should do the following:

•    Prioritize closing out those contracts that present the most risk to the Corporation.
•    Identify and dedicate specific staff or contractor resources that will perform the closeout.
•    Consider costs associated with using FDIC employees rather than contract employees to
     conduct closeout.
•    Consider costs for retrieving contract files from offsite storage. We understand that such
     costs could be $2.20 to $3.00 per box of records.
•    Establish firm milestone dates for closeout completion.

We also encourage ASB to continue working with the FDIC’s Legal Division to determine
whether the FDIC could “write off” some of the older expired contracts without performing
formal closeout procedures.

Recommendations

We recommend that the Director, DOA:

4.    Reiterate to all acquisition personnel, including OMs, the requirement to use CEFile to
      record contract documentation and events.

5.    Issue guidance to Contract Specialists and OMs that lists specific contracting documents
      and contracting events that should be recorded in CEFile and standardizes the organization
      and location of required documents within CEFile.

6.    Establish an internal quality review program or process for routinely monitoring CEFile to
      ensure completeness of individual contract file contents.

7.    In conjunction with recommendation 2, ensure that the adequacy of contract file
      documentation is considered in the performance appraisal criteria related to overseeing and
      administering contracts.

8.    Reevaluate whether the CAP and the OMMP are effectively designed to facilitate Contract
      Specialist and OM administration of large or complex contracts. Revise the CAP and
      OMMP, as needed, or establish other mechanisms and reiterate to Contract Specialists and
      OMs the need to complete and utilize those plans or mechanisms.

9.    Work with DIT and the Legal Division to establish a more-defined EVM program
      supported by procedures and resources capable of interpreting and acting on EVM results
      and data.




                                                  17
10.    Coordinate with the Legal Division to determine any legal issues that need to be addressed
       when closing out open contracts. Depending on legal issues identified, establish a
       risk-based approach, including time frames and priorities for formally closing out open
       contracts.

11.    Dedicate sufficient resources to close out all open contracts in a timely manner. Consider
       hiring a contractor to assist in this endeavor if staff is not available.


CONTRACT MANAGEMENT SYSTEM

The FDIC currently does not have an effective information system for managing contracts.
Although NFE integrates financial and procurement information to some extent, ASB has
identified a number of gaps between current procurement business processes and NFE system
capabilities. The Corporation has contracted with Oracle, Inc. (Oracle), to identify how best to
use NFE and to suggest other system solutions for managing contracts. Without an effective
contract management system, the acquisition workforce may not have ready access to sufficient
information to assure proper contract management and oversight or to make informed strategic
acquisition decisions.

Need for Comprehensive Procurement and Financial Data to Support Management
Decisions

The GAO Framework discusses the need for effective knowledge and information management
to provide credible, reliable, and timely data to make acquisition decisions. The framework
notes that leading organizations gather and analyze data to identify opportunities to reduce costs,
improve service levels, measure compliance with supplier agreements, and provide better
management of service providers. Additionally, data collected in support of meaningful metrics
can assist agencies in tracking achievement in comparison with plans, goals, and objectives.

GAO further notes that when buying goods and services, many leading organizations have
implemented comprehensive systems that integrate contracting, financial, and other data to
support management decisionmaking and external reporting requirements. These data:

•     track events throughout the life of a contract;
•     monitor contractor performance and work progress;
•     record and validate the receipt of goods and services; and
•     link to human capital systems to obtain information that monitors workload levels of COs
      and Contract Specialists and workforce training and education.

Finally, GAO notes that new technology tools can generate volumes of data, but the data are
meaningless unless they can be translated into relevant, understandable formats for acquisition
officials.




                                                18
FDIC Contract Information Systems

Historically, ASB maintained information about open and closed contracts using CMIA, a
desktop reporting tool that compiled procurement information from FIMS. CMIA provided
Contract Specialists, procurement analysts, and OMs the capability to print reports listing their
contracts and provided a contract-monitoring tool for managers and supervisors within ASB and
FDIC program offices.

The FDIC implemented NFE11 in May 2005 to improve financial business processes through
adaptable and efficient technology, implement an integrated solution to enhance the FDIC’s
ability to meet current and future financial management and financial information needs, and
leverage current technology to redirect resources from transaction processing to analysis, risk
management, and decision support. NFE replaced 37 legacy systems, including FIMS and
CMIA, and includes a number of modules, such as the general ledger, payables, and receivables.
An NFE information sheet included the following information for two NFE procurement-related
modules.

       The Purchasing module manages all purchasing activities (such as requisitions, change
       orders, purchase orders, contracts, and shipment receipts) online for efficient, cost-effective
       procurement of goods and services. The procurement process is streamlined through
       automated workflow approvals, and E-commerce functionality (e-mail, automatic faxing, and
       electronic catalogs). The eProcurement module works together with the Purchasing module
       to deliver E-commerce functionality. Additionally, the Purchasing module allows
       procurement personnel to carry out the following functions:

       •   Capture and maintain comprehensive records of the FDIC’s buying patterns and
           additional costs, such as the freight, duty, and setup charges associated with each
           purchase and provide a complete picture of procurement costs and support contract
           decisions.
       •   Maintain supplier information in one location.
       •   Manage the cost of small-dollar purchases by supporting and controlling the use of
           procurement cards.
       •   Enable budget checking and encumbrance/fund accounting during the procurement
           process for complete commitment control.

       The eProcurement module works with the Purchasing module to help manage organizational
       spending by decentralizing basic purchasing activities and empowering employees to make
       procurement decisions. This module delivers the following functionality:

       •   Integrates with suppliers, providing search tools that help the user find the right items to
           purchase and allows for fast approval of procurement requests.
       •   Accommodates sophisticated workflow rules for purchasing approval or notification.
       •   Helps keep track of the availability of funds by using budget checking and commitment
           control functionality.


11
     The FDIC selected PeopleSoft Financials as the optimal enterprise financial software for NFE.




                                                          19
The FDIC paid $45.4 million through March 31, 2006 for the purchase of NFE, which included
the Purchasing and eProcurement modules. Neither ASB nor Division of Finance (DOF)
personnel responsible for the NFE installation could provide a breakdown of the cost of the
individual modules. However, DOF officials stated that roughly 25 percent of the NFE project’s
851 user requirements were related to the procurement function.

Effectiveness of the Current Contract Information System

Based on our interviews with ASB and DOF officials and our reviews of NFE procurement- and
system-related documents and reports, we concluded that NFE provides some, but not all, of the
information that ASB requires to effectively administer FDIC contracts. NFE integrates
financial and procurement information to some extent. NFE also provides some valuable
information to Contract Specialists and other members of the acquisition workforce, such as
contract amount and the Contract Specialist and OM assigned. However, NFE does not provide
certain information that would be useful to ASB in managing contracts. For example:

•   NFE does not directly associate basic ordering agreement (BOA) or multiple award contracts
    with individual task orders placed against the BOA. NFE currently duplicates the overall
    BOA amount and individual task order amounts, resulting in inflated total contract dollar
    amounts in summary management reports. An example of a multiple award contract is DIT’s
    IT Application Services contract.

•   NFE does not distinguish between one-time purchases, such as a purchase of supplies, and
    formal contracts that require ongoing management. In this regard, ASB was not able to
    readily provide workload information for the number and dollar amount of formal contracts
    assigned to individual Contract Specialists or OMs.

•   NFE does not effectively associate individual contracts with the requesting FDIC division or
    office. NFE determines the requesting division by identifying the FDIC employee who
    initially requested the procurement and accessing Microsoft Outlook to determine to which
    division or office the employee is assigned. If the employee has moved to another division
    or left the Corporation, NFE could return inaccurate information.

•   NFE does not provide the capability to identify contracts with certain attributes such as those
    with privacy information.

•   NFE establishes multiple contract numbers for individual contracts that have expenses in
    both FDIC’s corporate and receivership capacity. This situation creates contractual risk in
    making sure that payments are recorded under the correct contract. This situation could also
    become confusing if the FDIC’s resolution activity increases and ASB correspondingly has
    to administer more contracts with corporate and receivership funding attributes.

•   NFE incorrectly identifies some contracts as being expired when those contracts are active.
    ASB thought that this situation had been corrected, but NFE is still reporting inaccurate
    information for some contracts.




                                                20
•      NFE cannot identify contract type, such as time-and-materials or fixed-price contracts, or
       whether a contract is performance-based. NFE also cannot identify whether a procurement is
       competitive or non-competitive or whether a contractor is a small or disadvantaged business.

•      NFE does not readily track non-monetary modifications to contracts, such as administrative
       modifications, option exercises, changes in key personnel, or new work or task additions.
       ASB is currently tracking these modifications manually, and the modification numbers in
       NFE do not directly align with the actual contract modification numbers.

Further, at the outset of our review, ASB and DOF indicated that NFE contained some data
inaccuracies resulting from the data conversion from FIMS to NFE. As a result, ASB
experienced reporting errors with contracting management reports such as the: (1) Alert Report,
which notifies the Contract Specialist and OM of contract milestones and contract funding
levels; and (2) Purchase Order Summary Report, which provides status information about
individual purchase orders. During early 2006, ASB provided NFE system information to FDIC
OMs and asked them to confirm the number of and information about active contracts, including
the accuracy of the final expiration dates and OMs as stated in NFE. In August 2006, we
confirmed that the accuracy of these reports had not been corrected, and ASB was still not
distributing those reports to COs and Contract Specialists to facilitate their management of active
contracts.

ASB Effort to Identify Technical Solutions to Maximize the Use of NFE

In September 2005, ASB requested approval to award a noncompetitive $300,000 contract to
Oracle to provide consulting services to assist the ASB in reviewing current business practices
and in developing and implementing technical solutions for maximizing ASB’s use of NFE.12 In
its rationale for the contract, ASB noted that since the implementation of NFE, ASB had
identified numerous gaps between current business processes and NFE system capabilities.
Specifically, ASB noted that entering, modifying, deleting, canceling, closing, and approving
purchase orders, contracts, and modifications had been more labor-intensive than expected and
that NFE reporting capabilities had made it difficult to manage the status of pending and
awarded contractual actions. ASB retained Oracle, which had recently purchased PeopleSoft and
the proprietary rights to the PeopleSoft products, as the only firm that fully understood the
complete capabilities of the PeopleSoft application. The contract period ended June 30, 2006,
and ASB stated that it would address the contractor’s recommendations once the contract was
completed. Table 7 on the next page explains specific areas of focus and tasks to be performed
by Oracle.




12
     As of August 23, 2006, ASB officials stated that the FDIC has spent about $99,000 on the Oracle contract.




                                                          21
Table 7: Tasks to be Performed by a Consultant for Maximizing ASB’s Use of NFE
  Areas of Focus                                        Tasks to be Performed
Business Process       Conduct interviews with key staff, managers, and client organizations, as appropriate, to
Reviews                gain an understanding of the current business process.
System Review          Review the FDIC’s current use of the system for entering, modifying, deleting, canceling,
                       closing, and approving transactions in the procurement-related processes.
Evaluation of          Evaluate current use of the system and make recommendations on data entry and
Processing             processing changes that can be implemented without any system configurations or
Changes                customizations to streamline the entry process, and increase the efficiency of entering and
                       recording transactions for procurement-related processes.
Gap Analysis           Develop a gap analysis that compares the procurement-related business processes to the
                       FDIC’s use of the system, including recommendations on the most efficient method of
                       resolving the gaps through system configuration or customization.

                      Provide recommendations and alternatives to solve gaps in the areas of requisition,
                      purchase orders, and procurement cards.
Change Control        Prepare required documentation to request configuration or customization changes for the
                      FDIC’s change control process.
Reporting             Assess reporting needs of the organization, and recommend necessary changes to the
                      current reporting environment to meet the business needs of the organization at the staff
                      and management levels.
Workflow              Assess the current use of workflow in procurement-related processes, and make
                      recommendations that will optimize workflow utilization.
Procurement-          Assist in addressing procurement-related processing or system problems that arise during
Related Process       the period of performance of the contract.
Source: ASB contract file.

In August 2006, we confirmed that ASB had received the results of the work performed by
Oracle. ASB had developed an Issues Log with 33 entries and assigned 24 issues to Oracle for
research. According to ASB, Oracle resolved all 24 issues by recommending either
configuration changes to NFE, which consisted of activating available NFE functionality, or
ASB business process changes to better accommodate NFE. Oracle did not make any system
programming changes to NFE to address the issues. DOA characterized the resolved issues as
incremental improvements but noted that NFE does not provide ASB with the information that it
needs to manage FDIC procurements. We concluded that the lack of an effective contract
management system presents an unacceptable level of risk not only to ASB, but also to the entire
Corporation. In this regard, ASB is working with DIT to implement an automated procurement
system that will interface with NFE and provide better management information.

System Requirements

As discussed earlier, NFE contained over 200 procurement-related user requirements. In some
cases, individual requirements had been modified, not fully implemented, or deleted. In other
cases, requirements had been technically implemented but did not meet ASB’s expectations or its
interpretations of what the requirements entailed. As a result, ASB is pursuing implementation
of an automated procurement system that interfaces with NFE. In our view, ASB needs to
provide the acquisition workforce with ready access to sufficient information to assure proper
management and oversight of contracts and to make informed strategic acquisition decisions
integral to long-term corporate success. To do so, ASB should clearly define its requirements for
the automated procurement system, including its intended relationship with NFE.




                                                        22
Recommendations

We recommend that the Director, DOA:

12.   Work with DOF and DIT to promptly remediate inaccuracies in the Alert Report and
      Purchase Order Summary Report and resume distribution of corrected informational
      reports to COs and Contract Specialists.

13.   Work with DOF and DIT to define requirements for the new automated procurement
      system, including to address the NFE shortcomings identified in this report.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DOA, provided a written response, dated September 29, 2006, to a draft of this
report. DOA’s response is presented in its entirety in Appendix III. DOA concurred with each
of the 13 recommendations and described planned actions with estimated completion dates
ranging from October 2006 through December 2007. DOA’s planned actions, and actions taken
to date, are responsive to our recommendations, and we considered all recommendations
resolved. However, these recommendations will remain open until we have determined that
agreed-to corrective actions have been completed and are effective. Appendix IV contains a
summary of DOA’s responses to our recommendations.




                                             23
                                                                                  APPENDIX I

                      OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the strengths and weaknesses of the FDIC’s contract administration
policies, procedures, and practices for ensuring that contract cost, schedule, and performance
requirements are met.

We performed our evaluation from November 2005 through August 2006 in accordance with
generally accepted government auditing standards. We performed field work in the FDIC’s
Headquarters offices in Washington, D.C., and Arlington, Virginia.

To accomplish our objectives, we reviewed:

•   the APM, ASB interim policies, and the CEFile Desk Companion;
•   GAO report entitled, Framework for Assessing the Acquisition Function at Federal
    Agencies;
•   OMB policy letter 05-01, Developing and Managing the Acquisition Workforce;
•   FAI’s Report on Competencies for the Contracting Officer’s Technical Representative
    (COTR) Job Function;
•   Department of Commerce’s Commerce Acquisition Manual and report entitled Contracting
    Officer Representative Certification Program;
•   a December 2005 MSPB report, Contracting Officer Representatives: Managing the
    Government’s Technical Experts to Achieve Positive Contract Outcomes; and
•   ASB-provided training materials, Management Reports, and ASB’s 2006 Policy and
    Operations Section Priorities Plan.

We also performed Internet research related to the Office of Federal Procurement Policy, GAO,
and EVM. In addition, we interviewed FDIC officials involved in the contract administration
process from DOA, DIT, DOF, and the Legal Division.

Reliance on Computer-based Data, Internal Controls, Fraud and Illegal Acts, and
Compliance with Laws and Regulations

We obtained reports from the FDIC’s Training Management Learning System and NFE relating
to procurement. We did not test the reliability of the data or the controls in the underlying
systems. Not performing assessments of computer-based data did not affect the results of our
evaluation. In addition, we reviewed documentation contained in ASB’s CEFile.

Our evaluation program included evaluation steps for providing reasonable assurance of
detecting fraud and illegal acts. None were identified.

We also identified and reviewed laws, regulations, policies, and procedures that were applicable
to our evaluation of ASB’s contract administration process.




                                               24
                                                                                           APPENDIX II



GAO FRAMEWORK FOR ASSESSING THE ACQUISITION FUNCTION
Cornerstones             Elements                                Critical Success Factors

Organizational           Aligning Acquisition with Agency’s      • Assuring Appropriate Placement of the
Alignment and            Missions and Needs                       Acquisition Function
Leadership                                                       • Organizing the Acquisition Function to
                                                                  Operate Strategically
                                                                 • Clearly Defining and Integrating Roles and
                                                                  Responsibilities
                         Commitment from Leadership              • Clear, Strong, and Ethical Executive
                                                                  Leadership
                                                                 • Effective Communications and Continuous
                                                                  Improvement
Policies and             Planning Strategically                  • Partnering with Internal Organizations
Processes                                                        • Assessing Internal Requirements and the
                                                                  Impact of External Events
                         Effectively Managing the                • Empowering Cross-Functional Teams
                         Acquisition Process                     • Managing and Engaging Suppliers
                                                                 • Monitoring and Providing Oversight to
                                                                  Achieve Desired Outcomes
                                                                 • Enabling Financial Accountability
                         Promoting Successful Outcomes           • Using Sound Capital Investment Strategies
                         of Major Projects                       • Employing Knowledge-Based Acquisition
                                                                  Approaches
Human Capital            Valuing and Investing in the            • Commitment to Human Capital
                         Acquisition Workforce                    Management
                                                                 • Role of the Human Capital Function
                         Strategic Human Capital Planning        • Integration and Alignment
                                                                 • Data-Driven Human Capital Decisions
                         Acquiring, Developing, and              • Targeted Investments in People
                         Retaining Talent                        • Human Capital Approaches Tailored to
                                                                  Meet Organizational Needs
                         Creating Results-Oriented               • Empowerment and Inclusiveness
                         Organizational Cultures                 • Unit and Individual Performance Linked to
                                                                  Organizational Goals
Knowledge and            Identifying Data and Technology         • Tracking Acquisition Data
Information              that Support Acquisition                • Translating Financial Data into Meaningful
Management               Management Decisions                     Formats
                                                                 • Analyzing Goods and Services Spending
                         Safeguarding the Integrity of           • Ensuring Effective General and Application
                         Operations and Data                      Controls
                                                                 • Data Stewardship
Source: Framework for Assessing the Acquisition Function at Federal Agencies, GAO, September 2005.




                                                     25
Appendix III
     APPENDIX III




27
     APPENDIX III




28
     APPENDIX III




29
     APPENDIX III




30
     APPENDIX III




31
     APPENDIX III




32
                                                                                                                    APPENDIX IV


                                    MANAGEMENT RESPONSES TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.

 Rec.                                                                          Expected         Monetary   Resolved:a   Open or
Number            Corrective Action: Taken or Planned/Status                Completion Date     Benefits   Yes or No    Closedb
   1      DOA responded that a program to strategically manage the
          Corporation’s OM workforce is a crucial element in creating a      March 31, 2007        $0         Yes        Open
          results oriented acquisition workforce focused on partnering,
          performance, quality and accountability through all phases of
          the acquisition cycle. DOA has initiated some efforts such as
               • development of an appropriate OM training
                    curriculum with CU, and
               • assigning a Principal Contract Analyst to oversee OM
                    programs and serve as the primary liaison on OM
                    issues.
          The liaison will also develop a comprehensive evaluation of
          OM needs. Lastly, DOA will benchmark against other federal
          agencies to determine best practices in management of the OM
          function and incorporate appropriate practices at the FDIC.
   2      DOA has made initial contacts with representatives from
          DOA’s Human Resources Branch (HRB) and the Legal                  November 30, 2006      $0         Yes        Open
          Division and DOA will continue discussions and coordination
          to develop a corporate position on the feasibility of including
          contract management performance criteria in the OM
          performance work plans.
   3      A team composed of contract policy and legal personnel has
          begun work on updating the APM and related contracting            December 31, 2007      $0         Yes        Open
          documents. In addition to revising the APM, this team is
          tasked with creating templates, standard documents, best
          practice guides, web-based tools, and training.




                                                                       33
                                                                                                                  APPENDIX IV


 Rec.                                                                        Expected         Monetary   Resolved:a   Open or
Number           Corrective Action: Taken or Planned/Status               Completion Date     Benefits   Yes or No    Closedb

         To date the team has benchmarked the APM against policy
         manuals from other governmental agencies which are exempt
         form the FAR, reviewed past OIG audits, interviewed ASB
         contracting staff, and begun drafting a revised APM.
  4      ASB has issued policy and guidance on the use of CEFile as
         the official contract file of record. ASB will issue another     October 31, 2006       $0         Yes        Open
         memorandum to remind all Contract Specialists and OMs of
         their responsibility to maintain and adequately document their
         respective contract files in CEFile. ASB will also modify the
         Letter of Oversight Manager Confirmation to include the
         requirement for the use of CEFile.
  5      ASB will review and update the contracting file checklists and
         CEFile Desk Companion to reflect current policy and              December 31, 2006      $0         Yes        Open
         procedures. ASB will provide additional written guidance to
         Contract Specialists and OMs which will standardize the
         organization and location of required documents within
         CEFile.
  6      DOA identified the CO’s review of the contract file prior to
         contract execution as the most vital step in ASB’s quality       December 31, 2006      $0         Yes        Open
         review program. DOA also referenced Interim Acquisition
         Policy No. 2004-03 Implementing Pre- and Post- Award
         Review Policy, dated March 4, 2004, which established an
         internal quality review program. DOA acknowledged that
         some of the elements of the program were not fully
         implemented during the time ASB experienced the most severe
         personnel shortages. DOA has since revitalized the program.
         Pre-award reviews have already been reinstituted and the
         required quarterly post-award reviews will be reinstituted.
         CEFile and the completeness of individual contract files are a
         review element.




                                                                     34
                                                                                                                    APPENDIX IV


 Rec.                                                                          Expected         Monetary   Resolved:a   Open or
Number          Corrective Action: Taken or Planned/Status                  Completion Date     Benefits   Yes or No    Closedb
  7      DOA noted that the standard performance plan in use for all
         Contract Specialists includes the performance evaluation
         criterion, Analytical and Technical Skills. DOA will issue a       November 30, 2006      $0         Yes        Open
         specific reminder to ASB managers to use this criterion to
         address performance regarding the adequacy of contract file
         documentation. Additionally, should the Corporation approve
         the implementation of Recommendation 2, completeness and
         quality of contract file documentation will be considered
         during the performance evaluation of OMs.
  8      DOA responded that the CAP and OMMP, as currently written,
         are not adequate tools. DOA will address this issue during the
         updating of the APM as discussed in Recommendation 3. This
         effort will include benchmarking with other federal agencies to     January 31, 2007      $0         Yes        Open
         identify and develop appropriate tools and processes. While
         this effort is underway, a reminder will be issued to all
         Contract Specialists and OMs addressing the requirement to
         complete and follow current guidance for the CAP and OMMP.
  9      DOA, DIT and the Legal Division will coordinate to develop a
         corporate EVM program. Additionally, DIT and ASB are
         working with CU to develop appropriate EVM training that            March 31, 2007        $0         Yes        Open
         will allow for effective implementation of the EVM program
         throughout the FDIC.
  10     DOA will coordinate with the Legal Division and establish a
         risk-based plan, including time frames and priorities, for         November 30, 2006      $0         Yes        Open
         formally closing out open contracts.
  11     As part of DOA’s plan for addressing contract closeouts, DOA
         will consider current staffing levels and workload in order to
         determine what type of resources will be needed to close out       November 30, 2006      $0         Yes        Open
         contracts in a timely manner, including the use of outside
         assistance, if necessary.




                                                                       35
                                                                                                                                               APPENDIX IV


 Rec.                                                                                     Expected              Monetary        Resolved:a        Open or
Number                 Corrective Action: Taken or Planned/Status                      Completion Date          Benefits        Yes or No         Closedb
     12       DOA has recently initiated several processes that will enhance
              the availability and accuracy of contract information obtained          November 30, 2006             $0              Yes             Open
              from NFE. Specifically, DOA worked with DIT to determine
              reporting query changes required to ensure accurate expiration
              dates are stated on the Alert Report and Purchase Order
              Summary Report. DOA will resume distribution of these
              reports to contracting officers and specialists upon completion
              of these changes. DOA also conducted training for acquisition
              personnel on a new process for linking individual task orders to
              the basic contract, thereby eliminating the risk of duplicate
              contract values being reported on summary management
              reports.
     13       DOA recently awarded a task order for the acquisition of an
              Automated Procurement System (APS). The objectives of the               December 31, 2007             $0              Yes             Open
              APS are consistent with the recommendations of the OIG.
              Following the Rational Unified Process (RUP) prescribed by
              DIT, the core functionality of APS is scheduled for completion
              in December 2007.
a
    Resolved: (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
              as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               36
